      Department of Homeland Security




               United States Customs and Border 

            Protection’s Management of the Federal 

             Employees’ Compensation Act Program 





OIG-12-63                                        March 2012

                                                              Ojjice of Inspector Genera!

                                                              u.s. Department of I-Iomeland Security
                                                              Washington. DC 20528




                                                              Homeland
                                                              Security
                       MAR 2 7 2011

                                            Prefacc

The Department of Homeland Security (DHS) Officc of Inspector General (OlG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by mnendment
to the Inspector General Act 0./1978. This is one ofa series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency. and effectiveness within the Department.

This rcport addresses the strengths and weaknesses of the United States Customs and
Border Protection's Federal Employees) Compensation Act program. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

Tht; recommendations herein have been developed to the best knowledge available to our
offi~e, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                       ;/       ? I!2Jl -wr
                                       nne L. Ri€h~ds
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................4


     CBP Has Not Effectively Managed Its Federal Employees’ Compensation Act

     Program To Control Costs .............................................................................................4 


     Recommendations..........................................................................................................9 


     Management Comments and OIG Analysis ..................................................................9 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................13 

     Appendix B:           Management Comments to the Draft Report .......................................15 

     Appendix C:           Major Contributors to this Report........................................................18 

     Appendix D:           Report Distribution ..............................................................................19 


Abbreviations
     CBP                   United States Customs and Border Protection 

     DHS                   United States Department of Homeland Security 

     DOL                   United States Department of Labor 

     FECA                  Federal Employees’ Compensation Act 

     FY                    fiscal year           

     HRM                   CBP Office of Human Resources Management 

     ICC                   injury compensation coordinator          

     ICS                   injury compensation specialist         

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  We reviewed United States Customs and Border Protection’s
                  (CBP) management of its Federal Employees’ Compensation Act
                  program. The objective of our audit was to determine whether
                  CBP is managing this program to minimize lost workdays and
                  related compensation costs.

                  CBP has not effectively managed its Federal Employees’
                  Compensation Act program to control costs. Specifically, it does
                  not conduct comprehensive reviews of its annual workers’
                  compensation bills and quarterly reports to validate costs, nor does
                  it consistently manage and maintain Federal Employees’
                  Compensation Act compensation case files. We attribute these
                  deficiencies to CBP’s organizational structure, which may not be
                  suited to effectively manage the number of Federal Employees’
                  Compensation Act cases. CBP also lacks policies and procedures
                  to ensure consistent and effective case management. As a result, it
                  has not minimized lost workdays and related compensation costs
                  and has been billed for inappropriate costs. Its 2010 workers’
                  compensation bill consisted of 11,229 cases totaling more than
                  $62 million in compensation and medical payments.

                  We are making six recommendations to CBP to improve
                  management of its Federal Employees’ Compensation Act
                  program. CBP concurred with all recommendations.




             United States Customs and Border Protection’s Management of the 

                       Federal Employees’ Compensation Act Program


                                         Page 1
Background
                  The Federal Employees’ Compensation Act (FECA), as amended,
                  (5 U.S.C. § 8101, et seq.) provides wage loss compensation,
                  medical care, vocational rehabilitation, and survivors’ benefits to
                  civilian employees and officers of the United States, and certain
                  other categories of individuals, for employment-related traumatic
                  injuries and occupational diseases. According to the United States
                  Department of Labor (DOL) Publication CA-810, Injury
                  Compensation for Federal Employees, a traumatic injury is a
                  wound or condition of the body caused by external force, including
                  stress or strain. It must be identifiable by time and place of
                  occurrence and member of the body affected, and caused by a
                  specific event or incident or series of such within a single day or
                  work shift. An occupational disease is a physical condition
                  produced in the work environment over a period longer than a
                  single workday or shift. FECA also provides for payment of
                  benefits to dependents if a work-related injury or disease causes an
                  employee’s death.

                  FECA benefits are financed by the Employees’ Compensation
                  Fund, which is replenished annually by charges to employing
                  agencies (“chargebacks”). Federal agencies are responsible for
                  advising employees of their FECA rights and responsibilities and
                  for managing compensation cases. Compensation case
                  management includes the following:

                      •    Initiating FECA claims;
                      •    Assisting employees in returning to work;
                      •    Challenging questionable claims;
                      •    Keeping in contact with injured employees;
                      •    Advising the employee about continuation of pay; and
                      •    Managing compensation costs.

                  United States Department of Labor

                  The United States Department of Labor Office of Workers’
                  Compensation Programs administers the FECA program. DOL
                  adjudicates all workers’ compensation claims and determines
                  workers’ compensation eligibility based on the medical and factual
                  evidence provided by injured employees. Under FECA and
                  accompanying regulations at 20 CFR 10.401, employees
                  permanently disabled by a work-related injury or illness are
                  compensated at a rate equal to 66.67% of the pay rate (without


             United States Customs and Border Protection’s Management of the 

                       Federal Employees’ Compensation Act Program


                                         Page 2
     dependents) or 75% (with dependents). Employees are
     compensated for partial disability according to 20 CFR 10.403.

     Each year, for the accounting period July 1 through June 30, DOL
     provides agencies with four quarterly chargeback reports. Each
     quarterly report is a statement of payments made from the
     Employees’ Compensation Fund because of injuries to the
     agencies’ employees. According to DOL, the final quarterly
     chargeback report is an annual bill for total charges from the
     1-year accounting period for compensation and medical payments
     that agencies must reimburse the Employees’ Compensation Fund.
     Agencies can use the quarterly reports to identify and correct errors
     before they appear on the final bill. According to DOL, agencies
     have 1 year after the final bill is issued to identify and report errors
     to DOL. DOL then includes the adjustments on the next year’s
     chargeback bill.

     United States Customs and Border Protection

     CBP is responsible for guarding nearly 5,000 miles of land border
     with Canada, 1,900 miles of land border with Mexico, and 95,000
     miles of shoreline. In fiscal year (FY) 2010, CBP had 58,724
     employees. The CBP Office of Human Resources Management
     (HRM) manages its FECA program. According to CBP, prior to
     2007, HRM had 15 injury compensation specialists (ICSs) who
     served as FECA subject matter experts for 200 injury compensation
     coordinators (ICCs). The ICCs managed compensation cases as
     collateral duties at field offices and ports, and they did not report to
     HRM.

     According to CBP, HRM reassigned case management
     responsibilities to the ICSs and expanded their role from acting as
     subject matter experts to performing all aspects of case
     management. ICCs were limited to initial claims processing in
     2007. Since 2007, the number of ICCs assigned to CBP field
     offices and ports has increased to more than 400. The 14 ICSs
     who currently manage all compensation cases have the following
     duties:

         •	   Administering all aspects of case management;
         •	   Performing final reviews of claims for compensation;
         •	   Submitting supporting documentation to DOL;
         •	   Collaborating with delegated supervisors or managers to
              establish productive and suitable light-duty job assignments
              for employees who can return to work; and

United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 3
                     •	 Maintaining up-to-date information on each worker’s
                        compensation claim.

                 According to CBP, HRM implemented eComp, a web-based data
                 tracking system for submitting compensation claims electronically
                 to DOL, in June 2009, but decided not to input cases opened prior
                 to June 2009, which are consequently in printed form only. The
                 eComp system is also used to manage workers’ compensation
                 cases and to store case documents electronically. Therefore, CBP
                 uses both printed and electronic files to manage its workers’
                 compensation cases.

                 Table 1 lists the number of CBP workers’ compensation cases and
                 related charges included in DOL’s annual chargeback bills to CBP
                 for 2007 through 2010.

                 Table 1. CBP Workers’ Compensation Cases and Costs
                  Chargeback Year Total FECA cases Total Costs
                  (July 1–June 30)
                        2007                 9,160        $57,639,011
                        2008                10,191        $62,538,259
                        2009                11,424        $67,686,399
                        2010                11,229        $62,650,987
                 Source: OIG analysis of annual chargeback bills.

Results of Audit
     CBP Has Not Effectively Managed Its Federal Employees’
     Compensation Act Program To Control Costs
          CBP does not comprehensively review its annual chargeback bills and
          quarterly chargeback reports and does not consistently manage and
          maintain its compensation case files. Consequently, CBP has been unable
          to minimize lost workdays and related compensation costs and has been
          billed for inappropriate costs. We attribute these deficiencies to CBP’s
          organizational structure, which may not be suited to effectively manage
          the number of FECA cases, and to the lack of policies and procedures that
          would ensure effective case management.

                 CBP Does Not Comprehensively Review Annual Chargeback
                 Bills and Quarterly Chargeback Reports

                 Because it does not perform comprehensive reviews, CBP has been
                 unable to validate the accuracy of annual chargeback bills for more

            United States Customs and Border Protection’s Management of the 

                      Federal Employees’ Compensation Act Program


                                        Page 4
     than 28,245 compensation cases from 2007 through 2009,
     amounting to $163 million in claims. CBP has not verified the
     accuracy of annual chargeback bills and quarterly reports, so it
     cannot determine whether DOL has been correctly billing the
     agency, and it may continue to incur inappropriate costs.

     CBP has not completed comprehensive reviews of its 2007, 2008,
     and 2009 annual chargeback bills. CBP has no record of a review
     of the 2007 chargeback bill, which contained $57.6 million in
     medical and compensation charges. CBP has reviewed and
     verified fewer than 5% of the cases reported on its 2008
     chargeback bill and fewer than 18% of the cases reported on its
     2009 chargeback bill. The cases in the 2008 chargeback bill that
     CBP did not review amount to more than $48.5 million, or 78% of
     the total medical and compensation payments made in 2008. The
     cases in the 2009 bill that were not reviewed amount to more than
     $56.4 million, or 83% of the total medical and compensation
     payments made in 2009.

     CBP’s partial reviews of the 2008 and 2009 chargeback bills
     identified cases billed to CBP in error. In 2010, CBP recovered
     more than $3 million from other components of DHS for workers’
     compensation costs incorrectly included in its 2008 chargeback
     bill. Further, according to CBP, it had identified 98 cases
     belonging to other DHS components before suspending its review
     of the 2009 chargeback bill in January 2011. At the time of our
     review, CBP was in the process of recovering $3.8 million
     associated with workers’ compensation cases included in its 2009
     chargeback bill that should have been charged to other DHS
     components.

     CBP has not reviewed DOL quarterly chargeback reports.
     According to CBP, it does not review the quarterly reports because
     the data are included in the annual chargeback bills. However,
     DOL stated that agencies can use the quarterly reports to prevent
     errors in the final chargeback bill. Without comprehensive review
     of its quarterly reports, CBP is at greater risk of paying for
     incorrect charges in annual chargeback bills.

     In addition to heightening the risk of paying for incorrect charges,
     incomplete review of chargeback bills and the lack of review of
     quarterly reports may increase the risk of fraudulent activity or
     abuse of compensation. We identified the following examples:




United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 5
     •	 The 2009 chargeback bill included 110 instances in which
        claimants’ Social Security numbers did not match CBP’s
        records and are likely in error. Since compensation claimants’
        Social Security numbers may be used to obtain medical
        documentation, employment, or earnings information, incorrect
        numbers could pose a risk of individuals receiving
        compensation under a false identity or fraudulently.

     •	 The 2009 chargeback bill included compensation charges for
        an employee who did not work for DHS. CBP had identified
        this error, but since the deadline for correcting charges (1 year)
        had passed, DOL would not credit the $40,742 in incorrect
        charges to the following year’s chargeback bill.

     •	 CBP did not identify incorrect compensation payments to a
        claimant over a 2-year period. The claimant had returned to
        work but continued to receive compensation from DOL. These
        incorrect payments, totaling $45,581, were evident in two
        annual chargeback bills and six quarterly reports.

     •	 In the 2010 chargeback bill, 30 compensation claimants did not
        have a payroll record with the National Finance Center to
        substantiate employment by CBP. These 30 claimants were
        paid more than $2.6 million in compensation from 2008
        through 2009. CBP may be paying these compensation claims
        in error.

     CBP’s policy states that Assistant Commissioners and equivalent
     offices, as well as the Chief of Border Patrol, are responsible for
     controlling workers’ compensation costs. However, the CBP
     Workers’ Compensation Program Office provides annual
     chargeback bills or quarterly reports to CBP offices only if
     requested. Since these bills and reports are not routinely provided
     to all stakeholders, CBP cannot be assured that management in
     these offices is aware of the compensation costs associated with
     staff members.

     CBP’s incomplete reviews of annual chargeback bills, its lack of
     review of quarterly reports, and the fact that it does not routinely
     share chargeback data with all stakeholders call into question the
     accuracy of the 28,245 compensation cases in the chargeback bills
     from 2007 through 2009 that were not reviewed and the
     corresponding $163 million in compensation and medical payments.



United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 6
     CBP Does Not Consistently Manage and Maintain
     Compensation Case Files

     CBP has not used a single system of record to manage its FECA
     case files since implementing its web-based data tracking system
     in June 2009. CBP has both paper and electronic versions of
     compensation case documentation. Files are also maintained at
     multiple locations. Some case files are not maintained at the
     location of the ICS assigned to those cases.

     According to CBP, ICCs retain case files for employees injured
     prior to January 1, 2007, but the ICSs responsible for case
     management can request these files as needed. However, CBP was
     unable to provide 45 of the 92 case files we requested from this
     period. According to the 2010 chargeback bill, these missing case
     files represent more than $1.6 million paid to claimants. Thus,
     CBP was billed for compensation paid to these claimants without
     sufficient knowledge of the nature or degree of their injuries or
     their ability to return to work.

     We identified case files that were missing documentation or
     missing up-to-date documentation. Further, documentation in
     some files indicated that claimants were not offered opportunities
     to return to work at the earliest date recommended in medical
     reports. In particular, we identified the following:

         •	 In 114 of 140 case files reviewed, the files were missing
            DOL-required forms or supporting medical documentation,
            including notices of claims and reports of disability
            termination. For example, one file indicated that a claimant
            had received $299,543.12 between 2003 and 2011, but the
            file did not include supporting medical documentation to
            justify compensation.

         •	 In 15 of 140 case files reviewed, the files included medical
            reports indicating that the employees’ physicians had cleared
            the employees to return to work on light duty or without
            restrictions. CBP paid these employees $951,195 in
            compensation after they had been medically cleared to
            work.

     CBP’s lack of a single system of record to maintain files increases
     the risk of paying for compensation costs that are not justified.
     Our review of 140 out of the 11,229 workers’ compensation cases
     reported on the 2010 annual chargeback bill showed that 81% of

United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 7
     the cases were missing documentation to support the associated
     $4.5 million in compensation and medical payments billed to CBP.
     The number of errors identified during our limited review calls into
     question the supporting documentation for the remaining 11,089
     cases and the associated $56.8 million billed to CBP.

     CBP’s Organizational Structure May Not Be Suited
     To Effectively Manage FECA Cases, and Policies and
     Procedures Need Revision

     CBP’s organizational structure may not be suited to effectively
     manage the number of FECA compensation cases. Further, CBP
     does not have up-to-date or detailed policies and procedures for the
     ICSs and ICCs, and the current policies and procedures do not
     provide sufficient detail or guidance for case management.

     According to CBP, 200 ICCs managed the workers’ compensation
     caseload prior to 2007. With the 2007 change in policy, 14 ICSs
     are responsible for managing the 11,299 compensation cases
     identified on the 2010 chargeback bill, which means that each ICS
     is handling an average of 802 cases. CBP did not conduct a
     workload analysis to determine the number of ICSs required to
     effectively manage FECA cases.

     CBP uses policies and procedures from the Workers’
     Compensation Program Handbook – US Customs Service, issued
     in March 2002. This handbook established case management
     responsibilities for ICCs, but these responsibilities were reassigned
     to the ICSs in 2007. CBP stated that an updated Workers’
     Compensation Program Handbook has been in draft since April
     2010, but as of December 21, 2011, it had not been finalized.

     CBP has not developed detailed and appropriate guidance for case
     management. Currently available policies and procedures do not
     provide enough guidance to effectively manage the compensation
     cases. The three CBP guides we reviewed primarily contained
     information either reproduced verbatim or summarized from DOL
     publications. In addition, CBP’s standard operating procedures are
     not sufficiently detailed to ensure consistent and effective review
     of annual chargeback bills and quarterly chargeback reports.




United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 8
     Recommendations
            We recommend that the Assistant Commissioner, Office of Human
            Resources Management, Customs and Border Protection:

            Recommendation #1: Revise current standard operating
            procedures to ensure a systematic and timely process to review,
            verify, and correct data contained in the quarterly chargeback
            reports and annual chargeback bills.

            Recommendation #2: Revise current policy to require the
            distribution of quarterly chargeback reports and annual chargeback
            bills to United States Customs and Border Protection stakeholders
            responsible for controlling workers’ compensation costs.

            Recommendation #3: Use a single system of record to maintain
            and manage all of United States Customs and Border Protection
            workers’ compensation cases.

            Recommendation #4: Conduct a workload analysis to identify the
            organizational structure necessary to effectively manage the number
            of FECA compensation cases and implement changes, as applicable.

            Recommendation #5: Review, develop, and approve policies and
            procedures that detail compensation case management
            responsibilities to provide a systematic process for injury
            compensation coordinators and injury compensation specialists.

            Recommendation #6: Review all workers’ compensation cases
            for employees who have been medically cleared to return to work
            and return those employees to work.


Management Comments and OIG Analysis

            CBP Comments to Recommendation 1

            Concur. According to CBP, it has revised existing standard
            operating procedures to ensure more systematic and timely reviews
            of quarterly and annual chargeback reports to identify errors. The
            new standard operating procedures outline formal procedures for
            quarterly and annual reviews by HRM and program offices to
            identify and correct erroneous chargeback data. CBP plans to have
            its corrective action implemented by July 31, 2012.


       United States Customs and Border Protection’s Management of the 

                 Federal Employees’ Compensation Act Program


                                   Page 9
     OIG Analysis

     We consider the recommendation resolved because CBP’s actions
     satisfy the intent of the recommendation, and CBP has provided a
     plan of action and milestones to implement the corrective actions.
     However, the recommendation will remain open until we can
     verify through review of supporting documentation that the revised
     standard operating procedures have resulted in the review and
     correction of data contained in the quarterly chargeback reports
     and annual chargeback bills.

     CBP Comments to Recommendation 2

     Concur. CBP is revising the CBP Workers’ Compensation
     Handbook. The revised handbook will outline policies and
     procedures for distribution and review of quarterly and annual
     chargeback reports by all CBP program offices. Each program
     office, as a stakeholder in the workers’ compensation process, will
     participate in the review of its respective chargeback as the first
     step in reducing costs by understanding where and how charges are
     incurred. Additionally, on February 2, 2012, the HRM Assistant
     Commissioner signed CBP Directive No. 51810-005. The directive
     provides policy guidance to all participants in the workers’
     compensation process. HRM has developed a communication plan
     to disseminate the directive, to work with program offices to
     implement the review of the chargeback reports, and to facilitate
     early return-to-work efforts to reduce costs. CBP plans to have all
     of its corrective action implemented by June 1, 2012.

     OIG Analysis

     We consider the recommendation resolved because CBP’s stated
     actions satisfy the intent of the recommendation, and it has
     provided a plan of action and milestones to implement the
     corrective actions. However, the recommendation will remain
     open until we can review supporting documentation to verify that
     quarterly chargeback reports and annual chargeback bills are
     distributed and reviewed by all CBP program offices.

     CBP Comments to Recommendation 3

     Concur. CBP implemented eComp in April 2009 and has
     reiterated its intention to use eComp as the system of record for the
     workers’ compensation program. To achieve this, CBP said that it
     is currently transferring all active pre-April 2009 hard copy cases

United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 10
     into eComp. CBP expects to have all its workers’ compensation
     cases in eComp by May 31, 2014.

     OIG Analysis

     The corrective action proposed by CBP satisfies the intent of the
     recommendation, and the plan includes milestones for
     implementation. We consider this recommendation resolved.
     However, the recommendation will remain open until we can
     review supporting documentation to verify that all active workers’
     compensation cases are managed in eComp.

     CBP Comments to Recommendation 4

     Concur. CBP states that it has completed a workload analysis,
     which revealed a workload beyond the industry standard.
     CBP will convene a team, which includes representatives from
     operational program offices, to assess the current business
     practices, benchmark with other agencies on their processes, and
     develop recommendations to create the most efficient ways of
     conducting business. CBP plans to complete these corrective
     actions by July 31, 2012.

     OIG Analysis

     The corrective actions proposed by CBP satisfy the intent of the
     recommendation, and the plan CBP provided includes a milestone
     for implementation. Accordingly, we consider this
     recommendation resolved. However, the recommendation will
     remain open until we can review supporting agency documentation
     to verify that—

         •	   a workload analysis supporting CBP’s conclusion on a
              workload beyond the industry standard was conducted; and

         •	   the CBP team assembled to assess current business
              practices identifies efficient ways of conducting business.

     CBP Comments to Recommendation 5

     Concur. According to CBP’s response, the CBP Workers’
     Compensation Handbook is being revised to include all facets of
     case management and to incorporate the review of the quarterly
     chargeback report. CBP intends to complete the revision by
     June 1, 2012.

United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 11
     OIG Analysis

     The corrective action proposed by CBP satisfies the intent of the
     recommendation, and the plan CBP provided includes a milestone
     for implementation. We consider this recommendation resolved.
     However, the recommendation will remain open until we can
     review agency documentation to verify that the updates to the CBP
     Workers’ Compensation Handbook were completed.

     CBP Comments to Recommendation 6

     Concur. According to CBP’s response, the agency will develop a
     plan to review all disability cases to identify cases in which the
     medical evidence indicates the employee could return to duty.
     Additionally, HRM management stated that they will expand
     coordination with program offices to identify medically suitable
     positions for these employees. CBP anticipates completing these
     corrective actions by April 15, 2012.

     OIG Analysis

     The corrective actions proposed by CBP satisfy the intent of the
     recommendation, and the plan CBP provided includes a milestone
     for implementation. We consider this recommendation resolved.
     However, the recommendation will remain open until we can
     review agency documentation to verify that a review was
     completed and that HRM is coordinating with other program
     offices.




United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 12
Appendix A
Purpose, Scope, and Methodology

                    The objective of our audit was to determine whether CBP is
                    managing the FECA program to minimize lost workdays and
                    FECA-related compensation costs.

                    We reviewed applicable laws, regulations, and CBP internal policies
                    and guidance concerning workers’ compensation. Also, we
                    reviewed prior OIG audit reports and Government Accountability
                    Office reports on the federal workers’ compensation program.

                    We interviewed officials from the DHS Chief Human Capital
                    Officer and CBP’s HRM staff, including the Director and Deputy
                    Director of the Benefits, Medical, and Worklife Division. We also
                    met with the Branch Chief, Workers Compensation Program
                    Office; and Workers Compensation Program Office staff,
                    including ICSs. Additionally, we interviewed ICCs and other CBP
                    staff assigned to CBP offices outside of HRM.

                    We conducted site visits at CBP offices in Washington, DC;
                    Tucson, Arizona; El Paso, Texas; and Orlando, Florida.

                    To determine whether CBP is effectively managing its workers’
                    compensation cases, we conducted two tests of cases reported on
                    the 2010 chargeback bill. In the first test, we judgmentally
                    selected workers’ compensation case files until we reviewed 140
                    cases. We selected daily roll, periodic roll, and medical payments
                    only roll cases with the highest total compensation and medical
                    benefits paid for 6 of the 14 ICSs. We reviewed CBP’s printed and
                    electronic workers’ compensation case files, in addition to the
                    corresponding DOL electronic records. For the second test, we
                    reviewed all workers’ compensation cases with dates of injury
                    prior to January 1, 2007, assigned to one ICS.

                    We determined that the DOL annual chargeback bills and quarterly
                    reports were sufficiently reliable to serve as the universe of CBP
                    workers’ compensation cases from which to select files for review.

                    We assessed CBP’s review of 2007, 2008, and 2009 chargeback
                    data to determine if CBP had been verifying the accuracy of the
                    data contained in the DOL annual chargeback billings and
                    quarterly reports. Additionally, we compared CBP staff roster data
                    for FYs 2006 through 2010 with the 2009 chargeback bill. We did
                    not independently verify the information in CBP’s staff rosters.
                    Finally, we compared periodic roll cases from the 2010 chargeback
                    bill with National Finance Center employee data.


               United States Customs and Border Protection’s Management of the 

                         Federal Employees’ Compensation Act Program


                                           Page 13
     We evaluated CBP’s internal controls to the extent necessary to
     accomplish our objective. Specifically, we developed an
     understanding of internal controls over the CBP FECA program by
     reviewing agency policies and procedures, and interviewing CBP
     officials assigned to manage and administer the CBP FECA
     program. We planned the audit and determined the nature, timing,
     and extent of the tests we performed from the understanding we
     gained of the CBP FECA program.

     We conducted this performance audit between November 9, 2010,
     and May 18, 2011, pursuant to the Inspector General Act of 1978,
     as amended, and according to generally accepted government
     auditing standards. Those standards require that we plan and
     perform the audit to obtain sufficient, appropriate evidence to
     provide a reasonable basis for our findings and conclusions based
     upon our audit objectives. We believe that the evidence obtained
     provides a reasonable basis for our findings and conclusions based
     upon our audit objectives.




United States Customs and Border Protection’s Management of the 

          Federal Employees’ Compensation Act Program


                            Page 14
Appendix B
Management Comments to the Draft Report


                                                                                   1300 Pelms),I\"ilDia Avenue NW
                                                                                   Washington, DC 2021 9



                                                                                   u.s. Cust01Il5 md
                                                                                   Border Protection
                                                                                             February 23 , 2012




       MEMORANDUM FOR:                Anne L. Richards
                                      Assistant Inspector General fo r Aud its
                                      Office of Inspector General

       FROM :                         JarT1e~ Tomsheck       -y)/J~:
                                      Assistant Commissionet '     r ru   rt-'<L

                                      Office of Internal Affairs

       SUDJECT:                       Response to the Office of Inspector General Draft Rcport Entitled,
                                      "United States Customs and Border Protection ' s Management of the
                                      Federal Employees ' Compensation Act Program"

       Tbank you fo r the opportunity to review and comment on the OtTice of Inspector General (OIG) draft
       report entitled "United States Customs and Border Protection's Management of the Federal
       Emp loyees ' Compensation Act Program. " The OIO ' s objective was to determine whether CBP is
       manag ing its Federal Employee ' s Compensation Act program to minimize lost workdays and related
       compensati on costs.

       U.S. Customs and Border Protcction (CBP), Office of Human Resources Management (HRM) concurs
       with the draft report and recommendations. A summary ofCB P actions and correcti ve plans to
       address the recommendations is provided below . CA P further ;:Jdd resses these issues in-<.leplh in the
       attached CBP Corrective Action Pl an.

       Recommendation #1 : Review curren. standard operating procedures 10 ensure a systcmatic and
       timely process to review. verity. and correct data contained in tbe quarterly chargcback reports
       and annua l chargcbnek bills.

       CDP,HRM has revised the existing Standard Operating Procedures (SOP) to ensure more systematic
       and timely reviews of quarterl y and annual chargebaek reports to identify errors. The new SOPs
       o utline fOlmal procednres for quarterly and annual reviews by HRM and program offices to identity
       and correct erroneous ehargeback data.

       CB P/HR1'vI has recouped money from other Department of Homeland Security (D HS) components for
       erroneous charges identified 011 CBP' s Fi sca l Year (FY) 2009 chargt:hack . The tutal amuunt refunded
       to CB P was $3.4 mil lion. Revi ews of FY 2010 and FY 201 1 ehargcbaek reports will be conducted to
       identify erroneous charges when the reports are received from the Department of Labor; thi s process
       will be repeated in future fisca l years . HRM also irlentitial and co rrected errors in social security
       numbers made on claim forms.

       Cnrnp letion Date: 7/3112012




                   United States Customs and Border Protection’s Management of the 

                             Federal Employees’ Compensation Act Program


                                                       Page 15
Appendix B
Management Comments to the Draft Report



                                                           2

       Recommendation #2 : Revi se current policy to require (he distribution of quart erly chargeback
       reports and annual c hargeback bills to United States Customs and Borde r Protection
       stakeholders responsible for controlling workers' compensation costs.

       CBPIHR M staff is revising the CBP Workers ' Compensalion Handbook. The revised Handbook will
       outline policies and procedures for distribution and rev iew of quarterly and annual cha rgeback reports
       by all CBP Program Offices. The handbook will contai n SOPs outlining how the reviews will be
       conducted. As stakeholders in the workers' compensation process, each program office will
       participate in the review of their respective chargeback as the first step in reducing costs by
       understanding where and how charges are incurred.

       CI3P Directive No. 51810-005 was signed by the Assistant Commissioner, HRM on February 2, 2012.
       The directive provides policy guidance to all participants in the workers' compensat ion process.
       CI3P/HRM has developed a communicat ion plan to disseminate the directive, to work with program
       offices to implement the review of the chargeback, and to facilitate early return-to-work efforts to
       affect reduction of costs.

       Complction Date: 6/01n0J2

       Ileeommendation #3: Use a single sys tem of record to mainlain and manage all of United Slates
       C ustom s and Border Prolection workers' compensation cases.

       In April 2009, CBPIHRM imp lemented eComp, a web-based electronic submission and case
       management system. Since then, all CBP cases have been filed and maintained in eComp. CB PIH RM
       is currently transferring all active pre-April 2009 cases (hard copy cases) into eComp. When the
       process is completed, CI3P will have attained a single system of record for compensation cases.

       Completion Date: 5/31 /2014

       Recommendation #4: Co nduct a workload ana lys is to identify the organizationa l structure
       necessary to effecth'ely manage the number ofFECA compensation cases an d implement
       changcs, as app licable.

       C BPIHRM has completed a workload analysis, which revealed a workload beyond the industry
       standard. CI3PIHRM will convene a "Tiger Team" which will include representatives from operational
       program offices to assess current business practices. benchmark with other agencies 011 their processes,
       and develop recommendations to create the most efficient ways of conducting business.

       Completion Date: 713 1/2012

       Recommendation #5: Review, develop, and apl)rove policies and I>rocedures that detail
       compensa tion case management responsibilities to provid e a systemati c process for injury
       compensation coordinators and injury compensation specialists.

       Revision of the CBP Workers' Compensation Handbook is cu rrently underway to be inclusive of alJ
       facets of case management and to incorporate the review of the quarterly charge back report.

       Co mpletion Date: 6/01120 12




                    United States Customs and Border Protection’s Management of the 

                              Federal Employees’ Compensation Act Program


                                                      Page 16
Appendix B
Management Comments to the Draft Report



                                                          3

       Recommendation 6: Review all workers' compensation cases for employees who have been
       medically cleared to r eturn to work and return those employees to work .

       CBPIHRM will develop a plan to review all disability cases to identify those cases where medical
       evidence indicates that the employees cou ld return to duty. HRM will expand its coordination with
       program offices to identify medically suitable positions for these employees, and move the employees
       into these positions.

       Co mpletion Date: 4/15120J 2

       CBP appreciates the extensive work that the Office of Inspector General has performed in the review
       of the CBPIHRM Federal Employee Compensation Program.

       With regard to the classification of the draft report, cap did not identify sensitive infonnation Ihal
       would require a "For Official Use Only" designation. In addition, CBP has no technical comments 10
       the draft report.

       If you have any questions, please have a member of your staff contact Ms. Kristin Walls, Audit
       Liaison, Office of Internal Affairs, at (202) 344-1218.

       Anachment




                   United States Customs and Border Protection’s Management of the 

                             Federal Employees’ Compensation Act Program


                                                     Page 17
Appendix C
Major Contributors to this Report

                     Sandra John, Director
                     John Shiffer, Audit Manager
                     Robert Greene, Program Analyst
                     Alejandro Jaca-Mendez, Auditor
                     Kelly Herberger, Communications Analyst
                     Irene Aultman, Auditor
                     Terrell Tindull, Auditor
                     Jason Kim, Auditor
                     David Kinard, Auditor
                     Douglas Bozeman, Program Analyst
                     Lorinda Couch, Independent Report Referencer




                United States Customs and Border Protection’s Management of the 

                          Federal Employees’ Compensation Act Program


                                            Page 18
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Commissioner for U.S. Customs and Border Protection
                      Audit Liaison for U.S. Customs and Border Protection

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                United States Customs and Border Protection’s Management of the 

                          Federal Employees’ Compensation Act Program


                                            Page 19

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
